No. _______

In The

Supreme Court of the United States

IN RE: NAVY CHAPLAINCY,
CHAPLAINCY OF FULL GOSPEL CHURCHES, ET AL.,
V.

Petitioners,

UNITED STATES NAVY, ET AL.,
Respondents.

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Arthur A. Schulcz, Sr.
Chaplains’ Counsel, PLLC
21043 Honeycreeper Pl.
Leesburg, Virginia 20175
(703) 645-4010
art@chaplainscounsel.com
Counsel of Record
for Petitioners
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond VA 23219 (800) 847-0477

i
QUESTIONS PRESENTED FOR REVIEW
Background and Context
Petitioners, 54 Navy Non-liturgical (aka, “evangelical”) chaplains, see
Glossary, challenge specific Navy Chaplain Corps’ selection board1 procedures
under the Establishment and Due Process Clauses. “A Navy chaplain's role within
the service is ‘unique,’ involving simultaneous service as clergy or a
‘professional representative[]’ of a particular religious denomination and
as a commissioned naval officer.” In re England, 375 F.3d 1169, 1170 (D.C. Cir.
2004), cert denied, 543 U.S. 1152 (2005) (emphasis added-citation omitted). This
Circuit law implicates, if not holds, commissioning a denominational-representative
to provide religious ministry fuses civic and religious power. Yet, the D.C. courts for
over 20 years have rejected Petitioners’ constant argument commissioning
denominational-representatives as naval officers does not change their
“denominational agent” status, fuses civic and religious power, and Bd. of Ed. of
Kiryas Joel v. Grumet, 512 U.S. 687, 703-708 (1994) governs this case.
Until fiscal year (“FY”) 2003, after this litigation challenged Navy selection
board procedures, Navy selection boards were staffed by five or six chaplains, one of
whom was always a Catholic. The Department of Defense (“DoD”) defines chaplains
as denominational-representatives, i.e., agents of a religious organization, whose
primary duty is to provide religious ministry. Inspector General investigations of

1

“Selection” boards refers to statutory boards that select chaplains for promotions
and selective early retirement (“SER”).

ii
four chaplain boards established the challenged board procedures allow a single
board member, without accountability, to (1) anonymously destroy a chaplain
candidate’s career for any reason and (2) manipulate the board to promote
denominational favorites despite records inferior to those not selected. Over time,
Petitioners’ denominations suffered statistically significantly lower selection rates.
Fact 6, infra. Some Petitioners allege religious retaliation by hostile board members
or through a “cat’s paw.”
Questions Presented
The First question presented is whether the Navy’s grant of unbridled power
to reject Non-denominational chaplains to denominational-representatives serving
as chaplain selection board members violated rulings in Grumet, 512 U.S. at 703708, and Larkin v. Grendle’s Den, Inc., 459 U.S. 116, 125-26 (1982) that the
delegation of discretionary civic power to persons defined by their religious nature
requires “effective means of guaranteeing the government power will be and has
been neutrally employed.” Grumet, 512 U.S. at 703.
The Second question presented is whether the courts below denied
Petitioners’ right of access to the courts by denying them discovery necessary to
establish their claims by (1) ignoring Inspectors General investigations’ undisputed
evidence one chaplain selection board member can and did anonymously destroy
other chaplain careers for religious or retaliatory reasons; (2) ignoring Petitioners’
requests for judicial release from their secrecy oath to testify about denominational
preferences and prejudice they witnessed on boards by Chiefs and Deputy Chiefs of

iii
Chaplains as board presidents and other board members; and (3) using classic equal
protection precedent to nullify Establishment Clause guarantees.
PARTIES TO THE PROCEEDING
The 54 Petitioners here are the remaining plaintiffs in the consolidated cases
making up In re: Navy Chaplaincy, 07mc269: Chaplaincy of Full Gospel Churches v.
Harker (the acting Secretary of Navy), 99cv2945, filed 11/5/1999; Adair v. Harker,
00cv0566, filed 3/17/20; and Gibson v. U.S. Navy, 06cv1696, filed 4/28/06.
1.

Petitioning retired and former Navy Non-liturgical chaplains:

Richard L. Arnold; Ray A. Bailey; Michael Belt; William C. Blair; Rick P.
Bradley; George P. Byrum; Andrew Calhoun; Martha Carson; Greg Demarco;
Timothy J. Demy; Patrick T. Doney; Joseph E. Dufour; Larry Farrell; Alan Garner;
David L. Gibson; John Gordy; Richard F. Hamme; Furniss Harkness; William A.
Hatch, Jr.; Gary Heinke; Robert L. Hendricks; Frank Johnson; Laurence W. Jones;
Samuel David Kirk; Frank S. Klapach; Thomas G. Klappert; Jan C. Kohlmann;
Allen L. Lancaster; Michael Lavelle; Aria Drexler, successor and representative of
original plaintiff George W. Linzey; James Looby; Jairo Moreno; Walker E. Marsh,
Jr.; Denise Y. Merritt; David Mitchell; Timothy D. Nall; Edith Rene Porter-Stewart;
Cynthia Prince, successor and representative of original plaintiff James V. Prince;
Rafael J. Quiles; Daniel E. Roysden; Thomas Rush; Lloyd Scott; Mary Helen
Spalding; Gary Paul Stewart; Fred A. Thompson, Jr.; Glenn Thyrion; Armando
Torralva; Thomas R. Watson; James M. Weibling; David Wilder; Barby Wilson;
Wilson W. Wineman; Michael A. Wright; and Chris Xenakis.

iv
2.

Respondents

Respondents are the defendants in the three consolidated cases. The original
named parties sued in their official capacities have been replaced by successors to
their office. All persons are sued in their official capacities. They are:
The United States Navy; the Acting Secretary of Navy, the Hon. Thomas W.
Harker and successors; Chief of Naval Personnel, Vice Admiral John B. Nowell and
successors; Navy Chief of Chaplains (“Chief”), Rear Admiral (“RADM”) Brent W.
Scott and successors; and Deputy Chief of Chaplains (the “Deputy”), RADM Gregory
N. Todd and successors.
RELATED CASES
There are four related cases resulting from the division of the Petitioners’
claims into two categories, systemic claims, which this Petition addresses, and
Petitioners’ individual claims: retaliation, constructive discharge, and interference
with religious speech and activities. Chaplaincy’s 11/8/2018 Severance Order, ECF
344, severed all individual claims after it granted summary judgment on the
systemic claims to Respondents.
These related cases have the same basic issue, did Chaplaincy’s resolution of
the systemic claims also resolve the individual claims despite the fact the individual
claims were never addressed? The cases are:
Richard Arnold, et al., v. Secretary of Navy, 19cv 02755 (JDB) (D.D.C),
dismissed 09/09/ 2020, ECF 40 (Final Judgment), currently on appeal in the Court
of Appeals for the D.C. Circuit, Appeal No. 20-5330.

v
Allen Lancaster v. Secretary of Navy, Civil Action No. 2: 19-cv-95 (RCY)
(E.D.VA), pending and delayed due to COVID ramifications and effects.
Barby E. Wilson v. Secretary of Navy, No. 2:19-cv-515 (E.D.VA), dismissed
01/21/20, ECF 12. No appeal taken because plaintiff’s witnesses have all died
In re: Navy Chaplaincy, 07-mc-269 (JDB). The Court of Appeals reversed the
dismissal of 23 plaintiffs based on statute of limitations after the D.C. Circuit
reversed its earlier precedent that 28 U.S.C. § 2401(a) was jurisdictional. The
reversal came after Petitioners filed their opening brief which included a challenge
to the statute of limitations. The issue before the district court is whether tolling
applied to individual claims of retaliation, constructive discharge and interference
with religious speech or services raised by 18 dismissed plaintiffs still in the case.
The Chaplaincy court’s review only applies to those claims which were
severed from the main case, raising the same issues as the other cases above, did
the district court’s prior resolution of the systemic claims with judgment for the
defendants also resolve the plaintiffs’ individual claims.
The severed claims are no longer part of the case and/or isues before this
Court.

vi
TABLE OF CONTENTS

QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Background and Context . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . x
GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xiii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL, STATUTORY AND REGULATORY PROVISIONS . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
1.

Chaplains are denominational-representatives 24/7 . . . . . . . . 3

2.

The Navy denies chaplains the Sovereign’s power exercised by
all other officers except to anonymously advance their
denomination’s members or destroy other chaplains’ careers . 4

3.

The Chaplain Corps uses a “blackball” promotion procedure
allowing one board member to destroy other chaplains’ careers
without accountability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

vii
4.

Inspectors General Investigations of four chaplain promotion
boards show the challenged procedures encourage positive and
negative denominational preferences and retaliation . . . . . . . . 6

5.

Chiefs of Chaplains have used their influence and power to
advance denominational interests producing favored
denominations du jour . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

6.

The Navy’s own statistics from FY 1972-2000 show clear
denominational preferences not explainable by chance . . . . . 10

7.

The Navy has no effective procedures guaranteeing
denominational neutrality and preventing preferences on
Chaplain Corps’ selection boards . . . . . . . . . . . . . . . . . . . . . . . 12

C. The Judicial Proceedings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
I.

Well-established Precedent Requires Any Delegation of Discretionary Civic
Power to Persons Defined by Their Religious Identity to Include “Effective
Guarantees the Delegated Power Will Be Used Solely for Secular, Neutral,
and Nonideological Purposes” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
A.

The Establishment Clause Forbids the Fusion of Discretionary Civic
and Religious Power . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

B.

The Courts Below Rejected or Ignored Fusion . . . . . . . . . . . . . . . . . . 23

C.

1.

Fusion occurs when denominational-representatives are
commissioned as naval officers and appointed as chaplains . 24

2.

Placing chaplains on Navy promotion boards with their unique
selection procedures unconstitutionally fuses government and
religious power . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

Chaplaincy’s Holding Larkin Does Not Apply Is Contrary to and
Seriously Undermines Larkin and Grumet . . . . . . . . . . . . . . . . . . . . 28

1.

IG Investigations showed the procedures allowed
denominational considerations to determine promotions . . . . 30

viii
2.

II.

Sworn reports of bias and board members’ requests for secrecy
oath release created a judicial duty to investigate . . . . . . . . . 31

C.

Rejecting Fusion and Affirming Chaplains’ Ability to Blackball Other
Chaplains for Promotion Created a Circuit Split . . . . . . . . . . . . . . . . 31

D.

The Chief and Deputy Chief Have Conflicts of Interest When Acting as
Chaplain Selection Board Presidents . . . . . . . . . . . . . . . . . . . . . . . . . 32

The Courts below Violated Their Duty to Follow Well-established Precedent
Protecting Every Citizen’s Right of Access to Courts for Resolution of
Constitutional Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
A.

The Lower Courts Used Equal Protection to Destroy Establishment
Principles and Guarantees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

B.

Chaplaincy Abrogated Webster V. Doe and Similar Precedent to Protect
Clear Unconstitutional Conduct . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

C.

1.

Webster provides the basis for Petitioner’s right to seek
discovery to support their colorable constitutional claims . . . 36

2.

Webster was clearly focused on allowing discovery to expose
constitutional violations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

The Lower Courts Had a Duty to Honor Petitioners’ Requests to Be
Released from Their Oath of Secrecy, Pursue Discovery and Enforce
the Establishment Clause’s Commands . . . . . . . . . . . . . . . . . . . . . . . 38

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
APPENDIX:
Opinion of the U.S. Court of Appeals for the District of
Columbia Circuit in 19-5204, filed 11/6/20 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

A1

Opinion of the U.S. District Court of the District of Columbia,
filed 8/30/19 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

A6

Opinion of the U.S. Court of Appeals for the District of
Columbia Circuit in 13-5071, filed 12/27/13 . . . . . . . . . . . . . . . . . . . . . . . . . . . .

A51

ix
Order of the U.S. Court of Appeals for the District of
Columbia Circuit in 13-5071, filed 2/24/14 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

A62

Opinion of the U.S. District Court of the District of Columbia,
filed 2/28/13 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A63
Order of the U.S. Court of Appeals for the District of
Columbia Circuit in 12-5027, filed 11/2/12 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

A92

Order of the U.S. Court of Appeals for the District of
Columbia Circuit in 12-5027, filed 1/3/13 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A108
Opinion of the U.S. District Court of the District of Columbia,
filed 1/30/12 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A110
Order Denying Rehearing of the U.S. Court of Appeals for the
District of Columbia Circuit in 19-5204, filed 1/15/21 . . . . . . . . . . . . . . . . . . .

A128

Opinion of the U.S. District Court of the District of Columbia in
Adair v. Winter, filed 9/11/06 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A129
Constitutional, Statutory and Regulatory Provisions

. . . . . . . . . . . . . . . . . . . . A141

Rear Admiral Holderby’s Testimony to Naval Inspector General re:
FY 97& 98 Chaplain Commander Boards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A144
FY 97&98 NIG Testimony of Baptist board member complaining of
denominational preference done very “slickly” to Naval Inspector
General re: FY 97& 98 Chaplain Commander Boards . . . . . . . . . . . . . . . . . . . . A149

x
TABLE OF AUTHORITIES
FEDERAL CASES:
Adair v. England, 183 F.Supp. 2d 31 (D.D.C. 2002) . . . . . . . . . . . . . . . . . . . . . 14, 37
Adair v. England, 217 F.Supp.2d 7 (D.D.C. 2002 . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Adair v. England, 209 F.R.D. 5 (D.D.C.2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Adair v. Winter, 451 F.Supp.2d 210 (D.D.C. 2006) . . . . . . . . . . . . . . . . . . . . . . 16, 35
Albright v. Oliver, 510 U.S. 266 (1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
Barghout v. Bureau of Kosher Meat and Food Control, 66 F.3d 1337
(4th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Bell v. Hood, 327 U.S. 678 (1946) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Bd. of Ed. of Kiryas Joel v. Grumet, 512 U.S. 687 (1994) . . . i, ii, 2, 22-24, 26, 28, 40
Bowen v. Michigan Acad. of Fam. Physicians, 476 U.S. 667 (1986) . . . . . . . . . . . . 37
Chaplaincy of Full Gospel Churches v. England, 454 F.3d 290 (D.C. Cir. 2006) 16, 34
Church of Lakumi Babalu v. Hialeah, 508 U.S. 520 (1993) . . . . . . . . . . . . . . . . 28-29
Commack Self-Service Kosher Meats, Inc. v. Weiss, 294 F.3d 415 (2d Cir. 2002), cert
denied, 537 U.S. 1187 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Committee for Public Ed. v. Nyquist, 413 U.S. 756 (1973) . . . . . . . . . . . . 3, 28-29, 31
Corp. of Presiding Bishop v. Amos, 436 U.S. 327, 337 (1987) . . . . . . . . . . . . . . . . 32
County of Allegheny v. ACLU, 492 U.S. 573 (1989) . . . . . . . . . . . . . . . . . . . 29, 35, 36
Davis v. Passman, 442 U.S. 228 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Gillette v. U.S., 401 U.S. 437 (1971) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 29, 31, 35
In re: England, 375 F.3d 1169 (D.C. Cir. 2004), cert denied, 543 U.S. 1152
(2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 4, 15, 25

xi
In re: Navy Chaplaincy, 534 F.3d 756 (D.C. Cir. 2008), cert denied, 556 U.S. 1167
(2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
In re: Navy Chaplaincy, 697 F.3d 1171 (D.C. Cir. 2012) . . . . . . . . . . . . . . . . 1, 17, 28
In re: Navy Chaplaincy 738 F.3d 425 (D.C. Cir. 2013), cert denied, 574 U.S. 922
(2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 18, 34
In re: Navy Chaplaincy, 928 F. Supp. 2d 26, 35 (D.D.C.), aff'd, 738 F.3d 425 (D.C.
Cir. 2013), cert denied, 574 U.S. 922 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . 35
Int'l Bhd. of Teamsters v. United States, 431 U.S. 324 (1977) . . . . . . . . . . . . . . . . 11
Katkoff v. Marsh,, 755 F.2d 223 (2d Cir. 1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Larkin v. Grendle’s Den, Inc., 459 U.S. 116 (1982) . . . . . . ii, 17, 20-22, 28, 30, 33, 40
Rigdon v. Perrry, 962 F.Supp. 150, 157 (D.D.C. 1997) . . . . . . . . . . . . . . . . . . . . . . . 5
Webster v. Doe, 486 U.S. 592 (1988)

. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15, 36, 37

W. Virginia State Bd. of Educ. v. Barnette, 319 U.S. 624 (1943) . . . . . . . . . . . . . . 34
Yick Wo v. Hopkins, 118 US 356 (1886) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18, 20, 35

STATUTES:
5 U.S.C. § 702 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
10 U.S.C. § 612(a)(2)(A) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
10 USC § 613a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20, 36
10 U.S.C. § 643 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
10 U.S.C. § 3581 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
10 U.S.C. § 8581 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S. § 453 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

xii
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1343 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1346 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

MISC:
DoD Instruction 1304.28 (2004), Guidance for the Appointment of Chaplains for the
Military Departments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
DoD Instruction 1304.28 (2021), Guidance for the Appointment of Chaplains for the
Military Departments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Navy Instruction (SECNAVINST) 1730.7B, “Subj: Religious Ministry Support
Within the Department of the Navy” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Secretary of Navy Instruction 1730.7.B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
U.S. Navy Regulation 1140.3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 26

xiii
GLOSSARY
A.

Abbreviations. The following abbreviations are used throughout this
Petition:

Naval Rank:
CAPT - Captain
CDR - Commander
LCDR - Lieutenant Commander
LT - Lieutenant
LTJG - Lieutenant junior grade
RADM - Rear Admiral
Organizational Abbreviations
AGC - Associated Gospel Churches
CFGC - Chaplaincy of Full Gospel Churches
CHC - Navy Chaplain Corps
Chief - Chief of Chaplains
CNA - Center for Naval Analysis
Deputy - Deputy Chief of Chaplains
DoD - Department of Defense
DoDIG - DOD Inspector General
DoDI - DOD Instruction
FY - Fiscal Year
FGC - Faith Group Categories or Clusters

xiv
NIG - Naval Inspector General
SECNAVINST - Secretary of Navy Instruction
Other Abbreviations
Axx - Appendix
PI - Preliminary Injunction
B.

Relevant Terms

Accession. An accession is a chaplain applicant who has met all the qualifications
to be appointed as a military chaplain and become a member of the Chaplain Corps.
The term is relevant here because Petitioners’ evidence shows a correlation between
Chaplain Corps’ prejudice against certain denominations and the low acceptance
rates of their applicants, i.e., accessions, and their chaplains’ promotion rates to
Commander.
FOS- Failure of Selection, considered for promotion but not selected.
Faith Group and denomination: Not all religious bodies or organizations
consider themselves “denominations”; some reject the concept of a religious
“denomination”. DoD refers to these as faith groups, and uses that term collectively,
as in “faith group cluster” and individually, to refer to endorsers. While DoD uses
the terms “faith group”and “denomination” interchangeably, Petitioners use
denomination herein because it is a well-understood term. Petitioners use of the
term “denomination” includes faith groups and is consistent with constitutional
protections. The terminology is not a central issue in this Petition.
Faith Group Categories (“FGCs”). The Navy divides its chaplains and personnel

xv
into four general faith group categories or clusters (“FGCs”) according to alleged
faith group similarities: Catholic, Liturgical Protestant, Non-liturgical and Special
Worship. A Chief of Chaplains’ 7/31/87 Memorandum to the Asst. Secy. of the Navy,
Subj: Chaplain Corps Faith Group Imbalance, explains how the Chaplain Corps
uses faith group clusters in its management:
1.

Catholic refers only to Roman Catholic. The Navy has historically

categorized other religious entities which identify themselves as “Catholic” but are
not in union with Rome as Special Worship.
2.

“Liturgical Protestant” collectively describes Christian denominations

which trace their origins to the Protestant Reformation, “emphasize a sacramental
theology including infant baptism, worship under officially adopted forms, wear
vestments” and “follow a cycle of lectionary readings [a list of scripture readings to
be read in church services at specific times throughout the year].” Id. at 2.
“Protestant liturgical” includes chaplains of the various Anglican, Congregational,
Episcopal, Lutheran, Methodist, Methodist Episcopal, Presbyterian, and Reformed
faith groups.
3.

“Non-liturgical Christian” or “Non-liturgical” refers to Christian

denominations or faith groups without a formal liturgy or order in their worship
service. In general, they “emphasize a Word-centered theology”, baptize only adults
or children who have reached the age of reason, and their clergy “do not wear
vestments and do not follow a cycle of lectionary readings” during services. Id. Some
Navy chaplains refer to these faith groups as "evangelicals". Baptist, Bible,

xvi
Charismatic, Churches of Christ, Evangelical, and Pentecostal are examples of Nonliturgical Christian faith groups.
4.

“Special Worship” category includes small Christian and non-Christian

faith groups whose ministry needs, per the USN CHC, “differ from” Roman
Catholic, and traditional Liturgical and Non-liturgical Protestant needs. Buddhist,
Christian Science, Greek Orthodox. Hindu, Jehovah’s Witnesses, Jewish, Latter
Day Saints (Mormons), Moslem, Seventh Day Adventist, and Unitarian faith groups
are examples in this category.
5.

“Liturgical” or “liturgical tradition” refers to both Catholic and

Protestant Liturgical faith groups.
Precept - the Secretary of Navy instructions or guidance to the promotion board. It
is normally drafted by the branch or category holding promotions. Precept is
relevant because (1) 10 U.S.C. § 615(b) refers to it and (2) the Navy Chaplain Corps’
precepts explicitly connect a chaplain’s “skill” with his/her denomination, thereby
facilitating denominational preferences.

1
PETITION FOR WRIT OF CERTIORARI
Petitioners respectfully petition this Court for writ of certiorari to review the
United States Court of Appeals for the District of Columbia Circuit’s final judgment
in this case.
OPINIONS BELOW
The U.S. Court of Appeals for the District of Columbia’s November 6, 2020,
decision denying petitioners’ appeal of the District Court’s grant of summary
Judgment to the Navy is unreported and set forth in the Appendix at A1-5. The
D.C. Circuit’s January 15, 2021, denial of Petitioners’ en banc review petition is at
A15-16. The District Court’s decision granting Respondent’ Summary Judgment is
A128.
The U.S. Court of Appeals for the District of Columbia’s, decision above relied
on two earlier decisons entered in a preliminary injunction (“PI”) motion, refusing
to reconsider Petitoners’ argument those decisions were inconsistent with this
Court’s precedent and incompatible with the Establishment Clause’s neutrality and
“no de minimis violation” mandates. The first is the D.C. Circuit’s December 27,
2013, decision denying Petitioners’ appeal of the denial of their preliminary
injunction motion (the “PI”) and their Establishment Clause and Equal Protection
arguments, reported at 738 F.3d 425 (D.C. Cir. 2013), cert denied, 574 U.S. 922
(2014), and set forth in the Appendix at A51-61. The second is its November 2,
2012, decision vacating the district court’s PI denial and remanding, 697 F.3d 1171
(D.C. Cir. 2012), and set forth in the Appendix at A92-108.

2
JURISDICTION
The D.C. Circuit entered its judgment November 6, 2020, and denied
Petitioners’ request for rehearing en banc January 15, 2021. 28 U.S.C. § 1254(1)
provides the Court jurisdiction.
28 U.S.C. §§ 1331, 1343, 1346, 5 U.S.C. § 702 and 42 U.S.C. § 2000-bb gave
the District Court jurisdiction over Petitioners’ challenges to the Chaplain Corps’
selection board procedures and policies, the basis for the issues on appeal.
CONSTITUTIONAL, STATUTORY AND REGULATORY PROVISIONS
Relevant constitutional, statutory, and regulatory provisions are set forth in
the Appendix, A141-43.
STATEMENT OF THE CASE
A. Introduction
The Establishment Clause’s “objective observer” would be familiar with the
facts in this case’s 21 plus year history and the relevant law. That means knowing
(1) Establishment Clause mandates (a) forbid the fusion of civic and religious power
absent effective guarantees religious factors will not influence government decisions
and (b) require religious neutrality when awarding government benefits, here
promotions; and (2) the First Amendment guarantees a fair opportunity to bring
and prove valid constitutional claims. The observer, applying the law to the facts
would come to one conclusion, this case is a disgrace.
The “observer” would know (1) the case concerns claims by a distinct group of
commissioned officers uniquely defined by their religious identity, chaplains; (2) the

3
two main legal issues here, (i) the Establishment Clause’s mandates of no fusion of
discretionary civic with religious power and (ii) no preference among
denominations, are very simple and governed by well-established law; (3) the
chaplains’ evidence gathered from DoD and Navy Inspectors General (“IG”)
investigations of four chaplain promotion boards clearly establishes both fusion and
denominational preferences in selection board results; (4) former board members
have asked to be released from their oath of secrecy to testify about board nonneutrality and unfairness; (5) this Court’s precedents are very clear: courts must
carefully examine any practice “challenged on establishment grounds with a view to
ascertaining whether [the practice] furthers any of the evils against which that
Clause protects”, Committee for Public Ed. v. Nyquist, 413 U.S. 756, 794 (1973); and
(6), there is no hint any lower court ever considered fusion or examined Petitioner’s
largly unchallenged evidence in accord with the Establishment mandates.
The objective observer would be greatly concerned at this overt injustice and
the judiciary’s failure to fulfill its duty to “support and defend the Constitution”
knowing the Bill of Rights protects the people from the government, not visa versa.
B. Facts
1.

Chaplains are denominational-representatives 24/7

“A Navy chaplain's role within the service is ‘unique,’ involving simultaneous
service as clergy or a ‘professional representative[]’ of a particular religious
denomination and as a commissioned naval officer.” In re England, 375 F.3d at1170
(citation omitted).

4
This reflects the reality of military chaplains’ history as denominationalrepresentatives reflected in DoD Instruction (“DoDI”)1304.28 (2004), “Guidance for
the Appointment of Chaplains for the Military Departments.” DoDI at 2, ¶ 5.1,
defines “military chaplains” as “Religious Ministry Professionals (RMPs)” who must
“receive an endorsement from a qualified Religious Organization”, id at 3, ¶ 6.1.
Enclosure 2 (“E2.") (“Definitions”), defines “Endorsement” as “The internal process
that Religious Organizations use when designating RMPs to represent their
Religious Organizations to the Military Departments and confirm the ability
of their RMPs to conduct religious observances or ceremonies in a military context,
¶ E2. ¶1.7 (emphasis added), A142. A chaplains’ skill is identified as as his/her
endorser.
The new May 12, 2021, DoDI 1304.28 does not change the definition of a
chaplain as a denominational-representative, but reinforces it. “Chaplains belong to
the religious-endorsing organizations and conduct religious ministry activities
consistent with the tenets of their respective religious-endorsing organizations.” Id.
3.1.d. There is no time when a chaplain ceases to be a denominationalrepresentative, i.e., an agent for a religious organization. When a chaplain ceases to
be a denominational-representative, 10 U.S.C. § 643 requires his/her separation.
2.

The Navy denies chaplains the Sovereign’s power exercised by
all other officers except to anonymously advance their
denomination’s members or destroy other chaplains’ careers

The Navy recognizes commissioning denominational-representatives as naval
officers, i.e., chaplains, results in the fusion of civic and religious power creating

5
an Establishment issue if chaplains exercised the Sovereign’s power inherent in
being an officer. To prevent this, the Navy denies chaplains the right as a Naval
officer to use the Sovereign’s power. Secretary of the Navy Instruction
(SECNAVINST) 1730.7B, “Subj: Religious Ministry Support Within the Department
of the Navy”, specifically defines chaplains by their religious identity, “professional
clergy of a certifying faith group who provide for the free exercise of religion for all
members of the Department of the Navy.” A143, ¶ 4.
1730.7B ¶ 4, id., specifically excludes chaplains from participation in the
duties common to all other naval officers that employ the Sovereign’s power,
limiting chaplains to duties solely related to religious exercises and ministry:
In accordance with Article 1063 of [Navy Regulations, 1990],
chaplains shall be detailed or permitted to perform only such
duties as are related to ministry support. Chaplains shall not
bear arms. Chaplains shall not be assigned collateral duties which
violate the religious practices of the chaplain’s faith group, require
services as director, solicitor, or treasurer of funds other than
administrator of a Religious Offering Fund, serve on a court-martial or
stand watches other than that of duty chaplain. (Emphasis added).
Chaplains cannot be a “superior commissioned officer with respect to a
person in the naval service who is junior in rank”, U.S. Navy Regulation 1140.3.
They have “rank without command,” Rigdon v. Perrry, 962 F.Supp. 150, 157, 159
(D.D.C. 1997) (Quoting, 10 U.S.C. §§ 3581, 8581). The Geneva Convention grants
them special rights due to their religious nature.
3.

The Chaplain Corps uses a “blackball” promotion procedure
allowing one board member to destroy other chaplains’ careers
without accountability

6
Unlike the other Services, no Chaplain Corps promotion board voting
member reads all candidates’ records. Instead, a board member briefs the
candidate’s file(s) assigned to him/her followed by all board members “voting the
record.” They insert their hand in a literal black sleeve and depress one of five
buttons, “0-25-50-75-100” indicating the member’s evaluation of the candidate’s
promotability. Voting Machine at Appendix A172. Members vote anonymously, no
record is kept of a member’s vote. There is no accountability for members’ votes.
RADM Black, then the Deputy Chief and Board President, explained to the
Navy IG investigating the FY 2000 CAPT Chaplain promotion board (the
“Washburn NIG”) how pressing the voting machine’s “zero” button, see A172 (voting
machine), could “take out” a candidate’s record in a “preemptive strike”,
guaranteeing a candidate’s failure of selection and destruction of his/her career with
no accountability, a process called “zeroing out”. Black knew Washburn was being
“zeroed out” but failed to stop or report the injustice. He indicated zeroing out was a
Corps wide problem. The voting machine and the small board membership allow a
board member to manipulate the board results, allowing favored unqualified
chaplains to stay in the selection process until they were promoted. RADM Black’s
NIG testimony A174, ¶ 4.
The IG complainant, CDR Mary Washburn, testified she had seen “zeroing
out” on six boards where she had served as a recorder or board member. A177, ¶ 7.
No other Armed Service uses a “blackball” procedure allowing one board
member to anonymously deny a candidate promotion, destroying his/her career.

7
4.

Inspector General Investigations of four chaplain promotion
boards show the challenged procedures encourage positive
and negative denominational preferences and retaliation

CAPT J. N. Stafford, the Navy Equal Opportunity Officer, investigated
Chaplain (Lieut. Commander) Aufderheide’s claim of religious discrimination in the
FY 1997 and 1998 chaplain commander selection boards. 12/23/97 Memorandum for
the Chief of Naval Personnel (the “Stafford Report”) ECF No.313-33. Stafford
concluded “the board may have systematically applied a denominational quota
system”, id. at 1, ¶ 3. He could not understand how Catholic chaplains whose
records showed consistent poor performance and failures of body fat and physical
readiness standards could be promoted. Id. at 3.
The follow-on Naval Inspector General Investigation (“NIG Report”) Re:
LCDR Aufderheide’s Allegations of Denominational Preference on the FY 97 and 98
Chaplain CDR Promotion Boards, rejected Aufderheide’s claims of denominational
bias by the Board President and retaliation by one of the board members. ECF 31319 at 14. This conclusion ignored obvious indications of denominational preferences,
retaliation and serious threats to the integrity of the board process. Lutheran
(“ELCA”) RADM Holderby admitted to the Navy’s IG he could influence board
members’ decisions because of his rank and position (Chief and Board President),
NIG Report Interview # 1, A146-47, denied he did so; but admitted (1) he
successfully lobbied for a previously failed of selection fellow Lutheran candidate on
the basis of a “devotional” the candidate gave during a Holderby visit, A147, an
event not in the chaplain’s record or a criteria for selection; and (2) a priest with an

8
inferior record was selected for denominational reasons over a chaplain with a
perfect record, A145. A Baptist board member complained of very “slickly” done
denominational preference, A150-51; and a board recorder testified a chaplain’s
promotion depended on how well his/her record was briefed by the assigned board
member. A153-54.
LCDR Aufderheide then requested a Department of Defense Inspector
General (“DoD IG”) investigation, Investigation Extracts at A156. The DoD IG
documented obvious misconduct and clear evidence that denomination played a part
in both boards’ promotions and rejections, but failed to note systemic problems.
RADM Holderby repeated to the DoD IG his Navy IG testimony, admitting
his advocacy could influence junior board members and this he had successfully
lobbied for a prior failed of selection (“FOS”) ELCA chaplain based on a single
verbal religious performance not in the Secretary’s instructions, i.e., a“devotional”,
nor in the chaplain’s record.
Holderby admitted a Catholic with an inferior record was selected over a
Baptist with an excellent record due to denominational considerations and
Catholics were treated as “minorities”, meaning given special consideration,
Extracts of DoD IG Report at 24, A161, and members’ comments outside the record
were a common occurrence contrary to regulations. Id. and A163 (re: “comments”).
A FY 97 board member remembered lowering his vote due to fellow board
member CAPT John Madden’s negative comment about Aufderheide not reflected in
the record. The DoD IG at A158, labeled that a “material error.” Aufderheide

9
claimed he confronted Catholic Madden over his womanizing and drinking in
London and Madden swore revenge. The DoD IG concluded Madden’s misconduct
denied Aufderheide fair consideration and recommended Aufderheide be given a
standby promotion board, id., which selected Aufderheide for Commander.
Like the Navy IG, the DoD IG found obvious evidence of denominational
preferences and retaliation. This included finding denominational considerations in
both FY 97 and 98, A157-158, A160-164 (“some evidence of denominational
considerations”); and choosing a Catholic with a poor record over a Protestant with
a perfect record “for the needs of the Navy”, A161, a phrase used to remind board
members of an imaginary “shortage of priests”, id., not supported by statistics. A
blatant example of a denominational factor determining promotions.
The Navy IG Investigation of the FY 2000 Chaplain CAPT Promotion Board,
see 3 above, found the female chaplain board member unlawfully denied CDR Mary
Washburn promotion over a disagreement with Washburn’s view of women’s
ministry. Washburn NIG, ECF 313-36 (Board member’s “piranhic [sic] problem with
[Washburn] seems to be a difference in philosophy concerning how women
[chaplains] in the Navy should conduct themselves and represent the gender.”).
The NIG FY 2009 Chaplain CAPT board investigation (the “Baker NIG”)
validated a Non-liturgical non-selectee’s retaliation complaint against Deputy
Chief, RADM Baker, the Board President. Two recorders testified Baker made a
“subtle but negative comment that did or could have negatively influenced board
members”, Baker NIG Extract, A182, ¶ 53; the IG found reprisal, A183, ¶ 58.

10
No board member on any investigated board reported misconduct on their
boards as their duty required them before the IG investigated.
5.

Chiefs of Chaplains have used their influence and power to
advance denominational interests producing favored
denominations du jour

The IG promotion board inspections provided evidence of Chiefs or their
Deputy’s using their rank and status to obtain favorable promotion decisions. One
of the FY 97 Commander board members contrasted RADM Holderby’s laid-back
approach with other Chiefs/board presidents who were bullying and more
aggressive. The Chiefs also approved the chaplain promotion board members.
Petitioners’ expert, Dr. Harald Leuba, PhD, examined the Chiefs’ influence
and effect on the award of government benefits, here promotions, after the Navy
reduced the number of chaplain board members to two; by policy one is the Chief or
Deputy: Statistical Evidence of the Navy’s Religious Preferences (“Preferences”)
(1/11/11), ECF 313-45. Preferences shows the Chiefs’ denominations receive
significant benefits during and after the Chief’s tenure in terms of promotions. This
applies year after year for every Chief’s denomination. Id. ¶ 2.2d.3-4.
Preferences’ Table 9 and its commentary below, ECF 33-45 at 73, shows the
Chief’s impact on promotions:
What Happens when the Chief of Chaplains and
Candidates for Promotion Share a Denomination –
or Do Not have a Common Faith?
(Navy Data for FY 2003-2012 promotions from Berto 8/26/11 Declaration)

11
Rank

Match conditions

Number of
Considers

Number of
Selections

% Selected

CDR

Match

48

40

83.33

CDR

No Match

287

210

73.17

Capt

Match

28

22

78.57

Capt

No Match

444

224

50.45

2.20.5. There were 48 occasions when some candidate being
considered for promotion to CDR happened to be the same
denomination as the Chief of Chaplains; 40 of these candidates were
selected for promotion. *** [T]his success rate, 83.3%, is statistically
significantly higher (by 2 standard deviations using a simple binomial
test) than the 73.3% success rate which was experienced by the
candidates who differed from the Chief of Chaplains on that occasion.
2.20.5.1 Similarly, there were 28 occasions when some candidate
being considered for promotion to Captain happened to be the same
denomination as the Chief of Chaplains; 22 of these candidates were
selected for promotion. Their success rate, 78.6%, is statistically
significantly higher (by 3 standard deviations using a simple binomial
test) than the 50.0% success rate which was experienced by the
candidates who differed from the Chief of Chaplains on that occasion.
6.

The Navy’s own statistics from FY 1972-2000 show clear
denominational preferences not explainable by chance

The Chaplain Corps hired the Center for Naval Analysis (“CNA”) to help it
plan for the new century. CNA found widespread discontent with the Chaplain
Corps’ promotion process and conducted an independent promotion investigation. In
doing so it collected promotion statistics from FY 72 through 2000 by each faith
group category, Catholic, Liturgical Protestant, Non-liturgical Protestant, and
Special Worship. CNA’s Senior Leadership Conference 2000 briefing chart (the
“Chart”), A190, shows the following promotion rates and data for FY 1972-2000:

12
Faith Group
Cluster

LCDR Promotion
%

CDR Promotion
%

CAPT Promotion
%

Liturgical

78.5%

(326)

72.0%

(382)

59.1%

Non-liturgical

79.5%

(327)

69.2%

(364)

53.3%

(242)

Roman Catholic

82.0%

(183)

83.7%

(264)

57.8%

(232)

Special Worship

88.6%

(44)

70.0%

(40)

52.0%

(25)

(298)

The Chart’s promotion rate differences are statistically significant, beyond 3
standard deviations, when compared by Faith Group Clusters or denominations.
Harald R. Leuba, PhD, Old Warnings, New Data (“Warnings”) ECF 313-44 at 5, ¶
16; see also id. at 2, ¶ 8.
On their face, the statistics show significant differences in promotion rates
between favored and disfavored denominations. CNA only reported statistical
significance in the Catholic chaplain promotion rate to commander, but wrongly
measured the part against the whole, rather than measuring each category against
others, e.g., Non-liturgical versus Catholic and versus liturgical Protestant. See Int'l
Bhd. of Teamsters v. United States, 431 U.S. 324, 337-38 (1977).
7.

The Navy has no effective procedures guaranteeing
denominational neutrality and preventing preferences on
Chaplain Corps’ selection boards

The Inspector General investigations show (1) allowing one board member to
brief a record, (2) the blackball voting machine and (3) having the Chief and/or
Deputy as Board President all but guarantee denominational preferences. CDR
Washburn reported seeing zeroing out on at least six boards on which she had

13
served as a recorder or board member. No board member reported religious
preferences, retaliation, zeroing out, or misconduct despite having a duty to report
any misconduct. The reason why is obvious, to report misconduct would be criticism
of the Rear Admiral Board President who holds the career of every chaplain in his
hands. Military subordinates risk their careers to correct senior officers who can
retaliate in numerous ways. Petitioner Xenakis’ reports in the Consolidated
Complaint, ECF 134, Addendum-1, ¶ 65:
Without commenting on specific board proceedings, he was
dumbfounded by the arbitrary comments board members, including
board presidents, were allowed to make and how even an innocuous
and subtle comment about “Corps reputation” could sway the entire
board’s decision for or against a given candidate. “Corps reputation” is
not in the records, the only basis on which promotion decisions are
supposed to be made.
Eleven Petitioners and two other former chaplains who served on selection
boards as recorders or projectionists have requested relief from their oath of secrecy
so they can provide evidence of denominational preferences and board unfairness.
Numerous sworn declarations show the Chaplain Corps’ promotion system is
riddled with denominational preferences, has no accountability, and
denominational prejudice pursuing denominational preferences goes unchallenged.
CAPT Bumbry, a FY 97 CHC CAPT board member, told CH Kitchen, in
South Carolina, a Protestant was removed from the FY 97 promotion list to add a
Catholic picked from below zone by the Catholic board member, to appease the
Catholic community, see Kitchen Declaration, A187-88, ¶¶ 6-7.
In California, CAPT Anderson, the Catholic board member, told CH Ellison

14
the same story CAPT Bumbry told CH Kitchen. CAPT Anderson provided details
about (1) some board members’ reaction concerning the Catholic in-zone candidates’
quality, (2) the lack of board members’ objection, and (3) his personal selection of
the Catholic selectee below the zone; CH Ellison Declaration, A 185, ¶¶ 5-6.
LCDR Gary Stewart went through all the candidates’ files to ensure their
completeness as part of his recorder duties for the FY 91 LCDR CHC board.
Stewart’s Declaration, A189, states:
4.
*** I was in a position to have seen the quality of the fitness
reports and records of those considered by the Board, both those
selected and not selected.
5.
I can state without equivocation, and without revealing the
"proceedings" of the Board, that the record of one Catholic selected for
promotion to Lieutenant Commander was grossly inferior to other chaplains
who were passed over for promotion, including at least one non-liturgical
chaplain who is a named [Adair] plaintiff. In addition, the chaplain selected
with the far inferior record was grossly overweight, a fact well known
throughout the Chaplain Corps.
Stewart asked for release from his secrecy oath to testify to what he saw, ¶ 8.
C. The Judicial Proceedings
Chaplaincy of Full Gospel Churches (“CFGC”), v. Danzig, 99-cv-2445 (D.D.C.)
(11/5/1999) challenged Chaplain Corps’ promotion and accession procedures
penalizing CFGC chaplains and chaplain candidates due to their religious beliefs.
Sixteen non-CFGC Non-liturgical chaplains challenged Chaplain Corps
promotion policies, retaliation and restrictions of preaching and religious prejudice
and sought a class action for all Non-liturgical Navy chaplains in Adair v. Danzig,
00-cv-0556 (3/17/2000).
Adair v. England, 183 F.Supp.2d 31 (D.D.C. 2002) addressed the Navy’s

15
motion to dismiss. Adair rejected the Navy’s argument “relaxed strict scrutiny”
should apply in reviewing denominational preference claims, distinguishing Free
Exercise from Establishment claims. “[T]his case requires the court to apply strict
scrutiny test to any practice suggesting a denominational preference.” Id. at 57
(quoting County of Allegheny v. ACLU, 492 U.S. 573, 608-09 (1989)).
Adair made a legal error hobbling Petitioners throughout this case by holding
the presumption of regularity applied to chaplain promotion boards since chaplains
served as naval officers, not denominational-representatives. Id. at 60-62. This
turned a rebuttable presumption into an irrebuttable presumption and violated the
rule that a plaintiff’s well-pleaded facts are taken as true in reviewing motions to
dismiss. Plaintiffs’ well-pleaded facts supported by evidence from IG investigations
showed chaplain board members in fact acted as denominational-representatives.
The District Court refused numerous requests to reconsider its holding until Adair
v. Winter, 451 F.Supp.2d 210 (D.D.C. 2006), A129, when it changed its holding to
reject petitioners constitutional challenged to In re England, 375 F.3d at 1180,
holding’ 10 U.S.C. § 618(f) barred discovery of promotion board proceedings.
Adair v. England, 209 F.R.D. 5 (D.D.C.2002) granted plaintiffs’ motion for
class certification but never defined the class or approved class representatives and
class counsel. In re England, op. cit, reversed Adair’s order requiring the Secretary
release board members from their oath of secrecy, rejecting Petitioner’s argument §
618(f) did not show Congress’s intent to preclude constitutional claims and Webster

16
v. Doe, 486 U.S. 592, 603-04 (1988) granted plaintiffs right to discovery to prove
their claims. In re England said plaintiffs could bring their claims but could not get
discovery to prove them.2 Id., n.2.
The plaintiffs sought an injunction to stop the Navy’s policy of commissioning
Catholic clergy beyond the age 40 regulatory limit and keeping them illegally on
active duty past the statutory separation age of 60 until reaching 20 years service
and a pension. The district court denied the motion for lack of irreparable injury.
Chaplaincy of Full Gospel Churches v. England, 454 F.3d 290, 304 (D.C. Cir. 2006),
reversed: “where a movant alleges a violation of the Establishment Clause, this is
sufficient, without more, to satisfy the irreparable harm prong for purposes of the
preliminary injunction determination.”
On remand, the court found the plaintiffs lacked standing despite the
previous ruling of irreparable harm. In re Navy Chaplaincy, 534 F.3d 756, 764 (D.C.
Cir. 2008), cert denied, 556 U.S. 1167 (2009), in a divided opinion affirmed, “the
Navy is not communicating a religious message through religious words or religious
symbols” despite the fact allowing this fraud communicated a message.
In 2006, the Navy discharged the last active duty plaintiff destroying the still
undefined class. The district court also denied the plaintiffs’ declaratory judgment

2

In re England relied on Baldridge v. Schapiro, 455 U.S. 345, 348-52 (1982), rejecting
Colorado’s challenge to obtain census information. As in many decisions here, the Court of
Appeals forgot or ignored this case involves the Establishment Clause. The Constitution gave
Congress power to regulate the census, but denies the government power to use religious
factors in awarding promotions. In re: England does not enforce constitutional limits, but
holds Congress can shield the Navy from constitutional claims despite the Supremacy Clause.

17
motion attacking the board procedures, holding the presumption of regularity
applied to the boards. Forty-one new Non-liturgical chaplains filed suit in the
Northern District of Florida, Gibson v. U.S. Navy3, which was transferred to the
District of Columbia. This made 65 total Non-liturgical plaintiffs and added the
Associated Gospel Churches (“AGC”), an endorser challenging accession and
chaplain promotion prejudice similar to CFGC.
The court consolidated all cases into In re Navy Chaplaincy in 2007 and
allowed Petitioners to amend their complaints. Immediately after the amendments’
approval in early 2009, Petitioners served new discovery to resolve long-standing
disputes, e.g., failure to produce unredacted IG investigations. Petitioners sought to
compel production but Chaplaincy stayed discovery in July 2009 due to pending
dispositive motions and never lifted the stay.
On 12/30/2008, Petitioners filed a partial summary judgment motion (“PSJ”),
ECF 34, attacking chaplain promotion procedures under the Establishment Clause.
On 7/22/2011 Petitioners sought a Preliminary Injunction, ECF 95, enjoining
chaplain promotion boards until their PSJ was decided. On 1/30/12, Petitioners filed
an emergency motion in the D.C. Circuit (No. 12-5024) before the FY 2013 boards
were due to begin. The district court then found no standing, denied the PI and
Petitioners appealed.
In re: Navy Chaplaincy, 697 F.3d 1171, 1177-78 (D.C. Cir. 2012), A92-108,

3

Filing this case in the District of Columbia would be malpractice under the D.C.’s
Rule of Professional Responsibility given the case and Circuit law.

18
reversed the PI denial; found Petitioners (1) had standing, A103; (2) would fail on
their Larkin “improper delegation” of civic authority to chaplains argument because
the Navy reviewed board results and provided standards, A105-06; but (3) had valid
claims of denominational discrimination, A106-07; and remanded to the District
Court to examine if “the defect in the Establishment Clause claim” was “legal or
factual.” A107-08.
On remand, the court rejected the previous law of the case, “evidence
suggesting denominational-preferences” would result in strict scrutiny of the
challenged practices. Adair v. England, 217 F.Supp.2d 7, 14-15 (D.D.C. 2002)(citing
County of Allegheny, op. cit.); changed Petitioners’ denominational preference
claim to “intentional discrimination”, i.e., disparate treatment, A78-801, a claim
dropped from the Amended Complaints; rejected Petitioners’ statistics for failure to
meet the “stark” criteria of Yick Wo v. Hopkins, 118 US 356, 359 (1886), A80-85,
A88-90; and denied the PI because Plaintiffs provided no evidence of intentional
discrimination against them, A85-89, without mentioning Establishment precedent.
In re: Navy Chaplaincy 738 F.3d 425 (D.C. Cir. 2013), cert denied, 574 U.S.
922 (2014), A51-61, affirmed the PI’s denial and reached the merits of Petitioners’
Establishment claims using a disparate treatment standard rejecting Petitioners
argument Establishment precedent controlled, not the intent required for classic
equal/disparate treatment. A55-57. The Circuit rejected Petitioners’ disparate
impact argument because their unrebutted statistics were not Yick Wo “stark, A56,

19
and cited alleged missing variables Respondents never raised: promotion ratings an unknown term not in the record, education, and time in service, (Congress’
criteria setting “in-zone” categories is “time in grade”), A57, A60; and questioned
Petitioners’ methodologies after oral argument, id. Chaplaincy erroneously
concluded strict scrutiny was inappropriate as “the challenged policies are facially
neutral”, A55, A57, and the objective observer would find the practices conveyed no
message of preference: “when reasonable observers find the term [statistically
significant] means only that there is little likelihood that the discrepancy is due to
chance, they are most unlikely to believe that the policies conveyed a message of
government endorsement”, A59-60. This despite more than 40 years of statistically
significant denominational promotion rate differences. Chaplaincy ignored CNA’s
findings, IG findings of religious prejudice and other evidence Petitioners cited.
On remand, Chaplaincy reduced Petitioners’ claims to nine, organized into
two groups, six systemic and three individual. A17. Systemic claims, were to be
decided by summary judgment in three phases: Phase I, the constitutionality of 10
U.S.C. § 613a’s bar on discovery as applied here; Phase II, the practice of having at
least one Roman Catholic on every chaplain selection board not requiring admirals;
and Phase III, the constitutionality of chaplain promotion procedures, including
using the blackball voting machine allowing one person to veto a promotion and
career, having a board member brief the record, and using the Chief and Deputy as
Board presidents; and whether the Religious Freedom Restoration Act applied. A18.
Chaplaincy granted Respondents summary judgment on all systemic claims.

20
It stated it was bound by the earlier 2013 Circuit ruling, A7, and rejected
Petitioners’ statistics, claims of “disparate impact” and discrimination because the
statistics did not meet the Yick Wo “stark” standard. A26, A33, A35-36, A38.
Ignoring the 54 years of having a Catholic on every board with a blackball voting
process, the court held the board staffing procedures were neutral with no evidence
of discriminatory intent, A28-32. Chaplaincy rejected Petitioners’ challenge to 10
U.S.C. § 613a’s bar of discovery of board proceedings because discovery was not
needed and there was no right to discovery for constitutional claims. A40-42.
The D.C. Circuit affirmed the district court’s summary judgments, A1-2; its
rejection of Petitioners’ attack on § 613a and motion to lift the discovery stay, A2;
Petitioners’ failure to meet Yick Wo’s “stark” statistics standard, A2; rejected
Petitioners’ fusion argument citing its 2012 decision the Secretary’s precept was a
“standard” and Larkin did not apply, id.; and ignored the IG results showing the
procedures and voting machine produced denominational preferences and religious
factors determined promotions.
REASONS FOR GRANTING THE WRIT
Before the Court is the central issue of fusion, the constitutionally forbidden
combination of religious and civic power absent “effective guarantees that the power
will be used exclusively for secular, neutral, and nonideological purposes.” Larkin,
459 U.S. at 125-27. Fusion, an issue since day one, has yet to be addressed with the
careful examination mandated to preclude “subtle departures from neutrality,
‘religious gerrymanders,’ as well as obvious abuses” this Court’s precedents require.

21
Gillette v. U.S., 401 U.S. 437, 452 (1971) (citation omitted); Nyquist, obid.
The issue is simple. The case could have been resolved 17 years ago had the
lower courts asked Respondents these five serially dispositive questions: Do you
agree: (1) commissioning religious ministry professionals as denominationalrepresentatives with the title “chaplain” and then assigning them to statutory
government benefit boards fuses civic and religious power”; (2) the IG investigations
show the blackball voting procedure allows one board member to “zero out” a
candidate’s promotion and career; (3) the Chief or Deputy as Board President can
influence board members by their comments about candidates or actions on the
board; (4) the Chief’s or Deputy’s role as board president chill the board members’
duty to report bias; and (5) chaplain promotion results are not free of
denominational bias? Either “Yes” or “No” responses show the bad faith
Respondents have prosecuted and the courts have supported.
Only this Court can now ask those ignored questions and revoke an unjust
precedent contrary to the First Amendment that corrupts the Judiciary’s duty.
I.

Well-established Precedent Requires Any Delegation of
Discretionary Civic Power to Persons Defined by Their Religious
Identity to Include “Effective Guarantees the Delegated Power Will
Be Used Solely for Secular, Neutral, and Nonideological Purposes”
[T]he core rationale underlying the Establishment Clause is
preventing “a fusion of governmental and religious functions,” School
District of Abington Township v. Schempp, 374 U.S. 203, 222 (1963)
[and other authorities]. The Framers did not set up a system of
government in which important, discretionary governmental powers
would be delegated to or shared with religious institutions.

Larkin, 459 U.S. at 126–27.

22
This case addresses the grant of unbridled discretionary civic power to
commissioned denominational-representatives whose loyalty is shared between
their religious organization and the Navy. The purpose of that power is to perform a
key governmental function on behalf of the sovereign, the selection for promotion of
naval officers who are denominational-representatives. This would seem to be the
very essence of fusion, persons defined by their religious identity and character
being granted discretionary civic power to act on the Sovereign’s behalf.
A.

The Establishment Clause Forbids the Fusion of Discretionary
Civic and Religious Power

Larkin explained the importance of keeping discretionary civic and religious
power separate. 459 U.S. at 122-123, 125-27. Given the variety of religious
viewpoints, denominations and churches, any appearance of favoritism towards one
to the exclusion of others undermines the unity of respect and toleration for all
religions in accordance with the Free Exercise and Establishment Clauses. Id. It
also destroys the basic right of equal treatment regardless of individual faith.
This concept was foreign to many established nations when the Declaration
of Independence was signed and the Constitution and Bill of Rights were ratified.
Our Founders saw religious persecution and resolved it would not be allowed here.
Government favoritism towards one religious perspective “enmeshes [religious
organizations] in the processes of government and creates the danger of political
fragmentation and divisiveness on religious lines. Id. at 127 (citing Lemon v.
Kurtzman, 403 U.S. 602, 623 (1972)). This produces envy, division, resentment, and

23
civil strife, the ills the First Amendment was designed to prevent.
Larkin and Grumet each “presented an example of united civic and religious
authority, an establishment rarely found in such straightforward form in modern
America.” Grumet, 512 U.S. at 697. The issue here is even more straightforward
than either case. In Larkin, the State’s regulatory power to approve liquor licenses
for restaurants was delegated to any church within 500 feet church of the food
establishment. 459 U.S. at 117. This vested “discretionary governmental powers in
religious bodies.” Id. at 123. In Grumet, the delegation was “the State’s
discretionary authority over public schools to a group defined by its character as a
religious community.” That distinction made no difference. Id. at 698.
Grumet distinguished between the delegation of civic power to “individuals
who happened to be religious”, e.g., religious legislator, and the “deliberate
delegation of “discretionary power to an individual, institution, or community on
the ground of religious identity.” Id. at 699.
Where “fusion” is an issue, the difference lies in the distinction
between a government’s purposeful delegation on the basis of religion
in a delegation on principles neutral to religion, to individuals whose
religious identities are incidental to their receipt of civic authority.”
As shown below, the delegation of civic authority to chaplains to select other
chaplains for promotion, an exercise of the Sovereign’s authority they are otherwise
precluded from exercising, results in the forbidden fusion of civic and religious
authority offensive to the Constitution.
B.

The Courts Below Rejected or Ignored Fusion

24
The issues before the Court in this section are whether Respondents’ chaplain
selection process meets Grumet’s criteria for fusion and whether Chaplaincy’s
adulteration of Larkin’s “standard” requirement fails as an “effective guarantee”
precluding religious factors from influencing the result. The answer is a clear “yes!”
Grumet established some clear criteria to assist courts in evaluating whether
unconstitutional fusion is present. First, is there a purposeful delegation of political
authority or power “on the basis of religion.” 512 U.S. at 699. Grumet looked at the
context of the statutory authority creating the school district which identified “these
recipients of governmental authority by reference to doctrinal adherence, even
though [the law] does not do so expressly.” Id.
Second, the delegation of authority or power must not be an aberration of
how that power has been traditionally used. Id. at 701-02. Grumet found the special
“School District is exceptional to the point of singularity”, id. at 701, and its
“creation ran uniquely counter to state practice”, reflecting religion as the criteria
for receiving civic authority, id. at 70.
Third, the courts must have a means of evaluating whether the governmental
authority was exercised in a religiously neutral way. The Court must have a “direct
way to review such state action for the purpose of safeguarding a principal at the
heart of the Establishment Clause, that government should not prefer one religion
to another, or religion to irreligion.” Id. at 703.
The Facts applied to the law show unconstitutional fusion is an issue here.

25
1.

Fusion occurs when denominational-representatives are
commissioned as naval officers and appointed as
chaplains

Fact 1 shows chaplains are denominational-representatives 24/7. That
is what they were hired/commissioned to be. DoD defines chaplains as religious
ministry professionals, selected by a religious organization to represent that
organization to the Services. Id. Their role and function are to provide ministry, a
religious term not otherwise defined, which differs depending on the
denominational perspective. “A Navy chaplain's role within the service is ‘unique,’
involving simultaneous service as clergy or a ‘professional representative[]’ of a
particular religious denomination and as a commissioned naval officer.” In re
England, 375 F.3d at1170 (emphasis added). They represent their denomination or
endorser to the Navy to provide ministry which the Establishment Clause forbids
the Navy itself from officially provideing to its religious personnel.
This fusion is constitutional because the Navy denies chaplains the
Sovereign’s power exercised by all other officers, Fact 2. Chaplains have rank
without command and can never be a superior officer over one who is junior in rank.
U.S. Navy Regulation 1140.3. They don’t pull duty watches unless for a chapel.
Regulations and practice preclude the mixing of roles and exercise of the
Sovereign’s power. Chaplains also fulfill a very critical and important governmental
purpose, ensuring both the Establishment and Free Exercise Clauses are honored,
not violated. See Katkoff v. Marsh, 755 F.2d 223, 232, 234 (2d Cir. 1985).
2.

Placing chaplains on Navy promotion boards with their

26
unique selection procedures unconstitutionally fuses
government and religious power
The delegation of discretionary civic power to promote or deny
promotion to denominational-representatives, i.e., chaplains, is a purposeful
delegation on the basis of religion. Selecting officers for promotion is a uniquely
governmental act performed by the Sovereign. 10 U.S.C. § 612(a)(2)(A) (composition
of selection boards) requires “at least one officer from each competitive category of
officers to be considered by the board.” Fact 1 establishes that a chaplain is defined
as a denominational-representative. Chaplains have their own “competitive
category” and their promotion boards require at least one commissioned
denominational-representative.
It is impossible for a chaplain serving on a selection board to enter the board
room with two hats, one as a naval officer and one as a religious representative, and
take the second one off while he/she votes. If a “chaplain” ceases to be a
denominational-representative, he/she is no longer a chaplain, Fact 1, destroying
the statutorily required board composition.
Grumet’s second fusion consideration is also met here, exercising the
Sovereign’s power on a selection board is an aberration of a chaplain’s use of power,
he/she are denied the use of the Sovereign’s power. Fact 2. In fact, using the power
to destroy other chaplains careers or manipulate the boards to advance one’s own
denomination is the only exercise of the Sovereign’s power chaplains are permitted.
Navy chaplain selection boards fail Grumet’s third test, evaluating whether

27
the governmental authority was exercised in a religiously neutral way, 512 U.S. at
703, with flying colors. The board proceedings are protected by statute, which the
D.C. Circuit has interpreted as barring any promotion related discovery, especially
what occurred on the boards, even when there is evidence of misconduct. Here, the
Navy has refused to provide unredacted copies of the FY 97 & 98 CDR Chaplain
Boards IG and other investigations. The DoD IG extracts, A156-64, produced under
the Freedom of Information Act (“FOIA”), have large sections redacted . The context
clearly suggests board discussions of denominational factors.
Page A160 is the lead in to an alleged incident where denominational
considerations, which RADM Holderby admitted were not supposed to be discussed,
in fact occurred. A large redacted section precedes Holderby’s admission on A161
“we struggled with denominational requirements”; his answer clearly indicates that
denominational considerations were more important than a perfect record, a
violation of the Establishment and possibly the Free Exercise Clause. In the copies
of the various witness transcripts produced under FOIA, whole sections are
redacted and the Navy has refused to provide unredacted copies. This was one of
the discovery disputes that was squashed by Chaplaincy’s imposition of the stay in
July 2009. The Navy argued the Secretary withdrew his waiver of security given so
the IGs could conduct their investigation. The courts have not insisted the material
be produced, nor asked for the Secretary’s withdrawal order nor the legal theory by
which a document declassified and distributed to the public can be recalled. The
result is the courts have no idea of what happened on any of the boards.

28
Respondents have shown no intention of releasing anything, objecting to
witnesses testifying about denominational preferences and retaliation they saw.
Finally, examining the actual results of the challenged procedures revealed
by IG investigations of four Chaplain boards (two Commander and two Captain)
show the challenged procedures allowed and encourage both positive and negative
denominational preferences and religious retaliation. Fact 4. The Chaplaincy courts
labeled the challenged procedures “neutral”, rejecting the detailed examination of
the contrary evidence provided by the IG reports and other declarations and
affidavits, e.g., A184-188. This examination is a duty required by numerous Court
precedents, e.g., Church of Lakumi Babalu v. Hialeah, 508 U.S. 520, 534 (1993), but
totally absent here along with any reference to the judicial responsibility to
carefully examine any practice “challenged on establishment grounds with a view to
ascertaining whether [the practice] furthers any of the evils against which that
Clause protects.” Nyquist, 413 U.S. at 794.
In summary, placing denominational-representatives on chaplain promotion
boards unconstitutionally fuses discretionary civic and religious power.
C.

Chaplaincy’s Holding Larkin Does Not Apply Is Contrary to
and Seriously Undermines Larkin and Grumet

In re: Navy Chaplaincy, 697 F.3d at 1177-78, A105-06, reversing Petitioners’
PI denial, rejected Petitioners’ argument Larkin, 459 U.S. at 125 (citation omitted),
mandated “effective means of guaranteeing that the delegated power will be used
exclusively for secular, neutral, and nonideological purposes.” A105. Chaplaincy

29
held: “This case is a far cry from the “standardless” delegation scheme at issue in
Larkin” since “Congress and the Secretary ... have articulated secular, neutral
standards to guide selection board members in evaluating candidates for
promotion.” Id. The finding “the Navy provides to each selection board specific
“guidance relating to the needs of the Navy . . . for officers with particular skills in
each competitive category” is technically correct but misleading and false in the
context of evaluating chaplains’ ministry, a religious term not otherwise defined.
This is another example of the courts’ below failure to carefully and
thoroughly examine the record in violation of its duty to carefully examine the facts
and allegations to protect Establishment Clause principles and values. See Nyquist,
op. cit.; Gillette, op. cit.; Church of Lakumi, op. cit.; County of Allegheny, op. cit.
No Navy document in the record describes for board members in secular,
neutral terms how to evaluate ministry, the duty for which chaplains are
commissioned and whose evaluation determines promotion. Many precepts say
nothing about “skills.” Chaplains use the same fitness report as other officers.
Especially concerning is the Court of Appeals’ reliance on words on pieces of
paper to provide the “effective guarantees” that the selection boards’ resulting
decisions are free from religious preference or bias. Setting out a regulation saying
decisions will be impartial without consideration of denomination does not meet
that standard as shown by the IG investigations of four chaplain boards. The
evidence from the Washburn NIG clearly indicates many boards were contaminated
by denominational bias. CDR Mary Washburn’s testimony states she had seen

30
“zeroing out” on at least six boards on which she served, A177. The request for
judicial relief from their oath of secrecy by at least 13 witnesses, some who served
on multiple boards, so they could provide relevant evidence concerning the boards’
adherence to denominational neutrality and standards of fairness shows this is not
a small or de minimus problem.
Courts are required to look at the results of the challenged procedures. That
they produce bias is evidenced in Facts 3-5 and the CNA’s statistics from FY 1972
to 2000. Chaplaincy showed no concern about whether those differences in Faith
Group Category promotion rates were not due to chance or, combined with evidence
the Inspectors General investigation produced plus requests for relief from their
oath, indicated a major violation by a major and prominent government agency.
The guidance the D.C. Circuit cited referring to skills, A105, consistent with
the oath all board members swear to make decisions in light of the skills needed,
ignores the fact the Navy identifies a chaplain’s skill as his/her denomination.
Citing “skills” is an invitation to chaplains to advance or hinder denominations
based on skill perceptions, as the Washburn NIG showed. How can a chaplain or
the Chief not think his particular denomination is the best thing for the Navy?
1.

IG Investigations showed the procedures allowed
denominational considerations to determine promotions

Equally duplicitous in light of Facts 3-5 is Chaplaincy’s holding, A106:
unlike in Larkin, where the churches had final say over the liquor
license applications, 459 U.S. at 125, here the two chaplains on the
selection boards share decision making authority with five others, and
the board’s promotion decisions are subject to further review by the

31
Secretary of the Navy and the Secretary of Defense.
This is willful blindness to the blackball voting procedure; zeroing out is
incompatible with sharing in “decision making authority”. Once again, a failure to
look for clear and overt violations of Establishment Principles is readily apparent.
RADM Black’s (A174) and CDR Washburn’s (A177) testimony about “zeroing
out” with the blackball voting machine show Chaplaincy’s “shared decision-making”
finding is a prejudicial myth contrary to the evidence and the truth. The other IG
investigations show denominational preferences and retaliation. See Facts 3-5.
The Secretary’s administrative review proceeds on the presumption the board
results are regular. It never compares the records of the selectees versus those not
selected as CAPT Stafford did. To hold that words on a piece paper are “standards”
providing “effective guarantees” is absurd, contrary to this Court’s many
precedents; only procedures providing effective review and accountability provide
“effective guarantees.” This is a dangerous precedent revoking for the Circuit the
Court’s well-established duty expressed in Nyquist, Gillette, and many others.
2.

Sworn reports of bias and board members’ requests for
secrecy oath release created a judicial duty to investigate

Petitioners also presented sworn statements how two board members
described the removal of a Protestant already selected for promotion because no
Catholic had been selected. A184-88. Eleven Petitioners have requested judicial
relief from their oath of secrecy to testify about unfairness and religious nonneutrality on the boards they witnessed. See, e.g., LCDR Stewart, A189. This

32
Court’s precedents suggest to not pursue this evidence violates 28 U.S. § 453, the
judicial oath to “faithfully and impartially discharge and perform all the duties ...
under the Constitution[.]”
D.

Rejecting Fusion and Affirming Chaplains’ Ability to Blackball
Other Chaplains for Promotion Created a Circuit Split

Examples “of united civic and religious authority “in modern America” are
rare. Grumet, 512 U.S. at 697. Two circuit courts have specifically addressed fusion.
Barghout v. Bureau of Kosher Meat and Food Control, 66 F.3d 1337, 1343 (4 th Cir.
1995) and Commack Self-Service Kosher Meats, Inc. v. Weiss, 294 F.3d 415, 429 (2d
Cir. 2002), cert denied, 537 U.S. 1187 (2003), both struck down “kosher fraud” laws
regulating what constituted “kosher” food. Neither examined the motives of the
legislators involved nor looked for specific denominational prejudice. Both examined
the effect of the laws and found the laws unconstitutionally fused “governmental
and religious functions” because government delegated “its civic authority to a
group chosen according to a religious criterion.” Barghout, op. cit.; Commack, op. cit.
Chaplaincy’s rejection of fusion and refusing to address the delegation of
career ending authority to denominational agents has created a Circuit split.
E.

The Chief and Deputy Chief Have Conflicts of Interest When
Acting as Chaplain Selection Board Presidents

Chaplaincy rejected Petitioners’ challenge to having the Chief and Deputy
serve as chaplain board presidents. Chaplaincy ignored the fact chaplains are
denominational-representatives and advancing their religion “is their very

33
purpose.” Corp. of Presiding Bishop v. Amos, 485 U.S. 327, 337 (1987). The Chief
and Deputy are the senior Navy representatives of their endorsing agency. That
creates a conflict vividly illustrated by RADM Holderby’s admission as president
and Chief, he could influence other board member by his comments, denied he did it
because it would be “unfair”, A147, and admitted he advocated for a FOS member of
his denomination on the basis of a “devotional”, A146, a religious exercise evaluated
from a denominational perspective. If allowed discovery of promotion boards,
Petitioners will present evidence that board presidents carefully examined votes
and criticized low scores for their denominational candidates. “The Potential for
conflict inhere’s in the situation,” Larkin 459 U.S. at 125 [citation omitted].
II.

The Courts below Violated Their Duty to Follow Well-established
Precedent Protecting Every Citizen’s Right of Access to Courts for
Resolution of Constitutional Claims
[Litigants] must be able to invoke the existing jurisdiction of the courts
for the protection of their justiciable constitutional rights. “The very
essence of civil liberty,. . . “certainly consists in the right of every
individual to claim the protection of the laws, whenever he receives an
injury. One of the first duties of government is to afford that
protection.”

Davis v. Passman, 442 U.S. 228, 242 (1979) (quoting Marbury v. Madison, 5 U.S.
137, 163, 1 Cranch 137, 163 (1803)). Accord , Bell v. Hood, 327 U.S. 678, 684
(1946). The record shows Petitioners have been denied a meaningful opportunity to
present their claims by using Due Process precedent as a means to eviscerate
Establishment protections; denying Petitioners discovery of board proceedings and
witnesses’ testimony of board misconduct and denominational preferences; and

34
ignoring unchallenged evidence that religious factors influenced chaplain
promotions.
A.

The Lower Courts Used Equal Protection to Destroy
Establishment Principles and Guarantees

This Court has been very clear when addressing due process-equal protection
claims in a specific constitutional context, the provisions of the specific amendment
at issue determine the appropriate due process/equal protection standards.
Where a particular Amendment “provides an explicit textual source of
constitutional protection” against a particular sort of government
behavior, ‘that Amendment, not the more generalized notion of
‘substantive due process,’ must be the guide for analyzing” such a
claim.
Albright v. Oliver, 510 U.S. 266, 273 (1994) (citation omitted here).
W. Virginia State Bd. of Educ. v. Barnette, 319 U.S. 624, 639 (1943) applied
this principle in the First Amendment Establishment-Free exercise context.
In weighing arguments of the parties it is important to distinguish
between the due process clause of the Fourteenth Amendment
as an instrument for transmitting the principles of the First
Amendment and those cases in which it is applied for its own
sake. *** Much of the vagueness of the due process clause disappears
when the specific prohibitions of the First become its standard.
(Emphasis added)
Here the pertinent liberty interest flows directly from the Establishment
Clause’s neutrality mandate, “protection against government imposition of a ...
religious preference.” CFGC v. England, 454 F.3d 290, 302 (D.C. Cir. 2006).

35
Religious neutrality and freedom from denominational preferences is the equal
protection to which every chaplain is entitled. “This protection ... requires no
affirmative conduct on the part of the individual before its guarantees are
implicated by government action.” Id. A violation requires no showing of intent. Id.
Prior to In re: Navy Chaplaincy, 928 F. Supp. 2d 26, 35 (D.D.C.)
(“Chaplaincy-2013"), aff'd, 738 F.3d 425 (D.C. Cir. 2013), cert denied, 574 U.S. 922
(2014), the law of the case protected that interest:
[W]hen litigants challenge a policy on the grounds that it amounts to a
denominational preference, while not explicitly discriminating on the
basis of religion, they must only present competent evidence that
“ ‘suggest[s] a denominational preference’ ” to trigger strict
scrutiny. Adair v. England, 217 F. Supp. 2d 7, 14–15 (D.D.C. 2002)
(quoting County of Allegheny v. ACLU, 492 U.S. 573, 608–609 (1979)).
The plaintiffs challenge the Navy's policies, not simply the alleged
impermissible intentions and actions of individual board members.
Adair v. Winter, 451 F. Supp. 2d 210, 218-19 (D.D.C. 2006) (Emphasis added).
The keywords are “evidence suggesting a denominational preference.” This
is consistent with precedent holding the Establishment Clause forbids “subtle
departures” from neutrality. Gillette, op. cit., and County of Allegheny, op. cit.
Chaplaincy-2013’s false claim Petitioners’ central theme was disparate
treatment and adoption of Fifth Amendment precedent, overrode Adair and its
County of Allegheny’s Establishment Clause denominational preference standard.
Chaplaincy’s embrace of Yick Wo “stark” for statistics, A81, A88-89 is incompatible
with “subtle departures” or suggestions of denominational preference.

36
This Court’s affirmance of Chaplaincy-2013 substitution of “disparate
treatment” for “denominational preference” ignored Barnette, Albright and similar
precedents’ clear command that First Amendment, not Fifth Amendment, principles
and precedent establish the standard for evaluating the challenged actions under
Due Process and Equal Protection. This illegal substitution effectively destroyed
Petitioners’ Establishment Clause protections by its prejudicial application of
classic equal protection criteria. This is obvious by the Circuit’s affirmance of
Chaplaincy-2013’s erroneous impositions of (1) Yick Wo v. Hopkins, 118 U.S. 356,
359 (1886)’s “stark” standard to disqualify Petitioners’ statistics, A2, A56; and (2),
requiring Petitioners to show intent to discriminate, A54, A56-57.
The Circuit rejected Petitioner’s argument statistical significance, i.e., the
result is not due to chance, is a well-known standard that would establish “evidence
suggesting” a denominational preference under County of Allegheny. It shows
clearly whether denomination had relevance in a chaplain’s standing in his military
community, see County of Allegheny, at 492 U.S. at 593-94 (citation omitted).
B.

Chaplaincy Abrogated Webster V. Doe and Similar Precedent to
Protect Clear Unconstitutional Conduct
1.

Webster provides the basis for Petitioner’s right to seek
discovery to support their colorable constitutional claims

Chaplaincy rejected Petitioners request for discovery of promotion
board proceedings, A2, A40-42, and other documents holding they had no right for

37
such discovery. A47. This is willful blindness to Webster v. Doe’s clear precedent,
486 U.S. 592, 603-04 (1988). Webster established two principles Chaplaincy
deliberately ignored. First, “where Congress intends to preclude judicial review of
constitutional claims its intent to do so must be clear. Id. at 603 (citing other
precedent establishing and reaffirming “that view”). That “heightened showing”
avoids “the ‘serious constitutional question’ that would arise if a federal statute
were construed to deny any judicial forum for a colorable constitutional claim.” Id.
10 U.S.C. § 613a has no such language and Petitioners certainly have “colorable
constitutional claims”; allowing the Navy to violate the Constitution abrogates the
Judiciary’s duty under the Supremacy Clause.
Second, important agency needs can be addressed because “the District Court
has the latitude to control any discovery process ... to balance respondent's need for
access to proof which would support a colorable constitutional claim against the
[Navy’s alleged] needs[.]” Id. at 604. This case does not involve national security,
but “quality of life issues”, Adair, 183 F.Supp.2d at 50.
2.

Webster was clearly focused on allowing discovery to
expose constitutional violations

Webster clearly articulated there was an important governmental
interest in allowing discovery to pursue “colorable constitutional claims.
Facts 3-5 clearly show unconstitutional denominational factors determined
and influenced decisions in the Chaplain Corps promotion boards the IGs examined.

38
The evidence shows more boards, including ones these Petitioners challenge
because they were denied selection, were affected by the denominational
preferences and retaliation identified by the IGs as realities from the procedures.
Bowen v. Michigan Acad. of Fam. Physicians, 476 U.S. 667, 681 (1986), cited by
Webster, 486 U.S. at 603, addressed whether certain Medicare regulations could be
judicially reviewed. Bowen articulated an important point applicable here: “ We
ordinarily presume that Congress intends the executive to obey its statutory
commands and, accordingly, that it expects the courts to grant relief when an
executive agency violates such a command.” That principle is no less important
when constitutional provisions are at issue, especially the Establishment Clause,
because it denies the power of the government to act in areas of religion. Congress
expects the courts to enforce the Constitution, especially where the Executive is
concerned. That means any such religious action is beyond the authority of
government officials, here, board members and Navy officials.
It would be a strange anomaly if Congress could pass legislation essentially
authorizing an agency, here the Navy, to violate the Constitution. If the Supremacy
Clause means what it says, Congress has no power to authorize what the
Constitution forbids. Webster’s rule that discovery is available is a mandate unless
Congress has clear language indicating constitutional claims are barred, or involves
specific areas constitutionally committed to other branches, e.g., census, national
security, foreign affairs or state secrets, historically protected venues.

39
Chaplaincy essentially holds the Navy may do what the Constitution forbids.
This cannot be allowed. Petitioners ask this Court to affirm their right to discovery
to “support their colorable constitutional claims”, a right Webster clearly establishes
but which Chaplaincy and the D.C. Circuit have abrogated.
C.

The Lower Courts Had a Duty to Honor Petitioners’ Requests
to Be Released from Their Oath of Secrecy, Pursue Discovery
and Enforce the Establishment Clause’s Commands

Petitioners have previously argued “Sworn reports of bias and board
members’ requests for secrecy oath release created a judicial duty to investigate” in
keeping with this Court’s well-established precedents to carefully examine
Establishment claims to preclude subtle or overt weakening of the Establishment
Clause principles and protections. §I.C.2 above. It is inconceivable how courts faced
with chaplain requests to be able to testify about conduct relevant to whether
promotion boards were conducted free of denominational influences is alleged could
not recognize their duty as defenders of the Constitution to allow that to happen. It
is also puzzling why courts would refuse to lift a discovery stay imposed in the
midst of a discovery dispute after dispositive motions were decided, the stay’s basis.
It would seem that the courts went out of their way to avoid their
responsibilities, despite being faced with unchallenged evidence from Inspector
General investigations, requests by former members of promotion boards to testify
about misconduct they witnessed. Petitioners respectfully ask this Court to address
this judicial lack of concern for the fundamental values at issue.

40
CONCLUSION
Examples “of united civic and religious authority “in modern America” are
rare. Grumet, 512 U.S. at 697. Commissioning denominational representatives as
naval officers fuses civic and religious authority. Navy’s regulations acknowledge
this by denying chaplains the Sovereign’s authority. Only on selection boards may
chaplains use the Sovereign’s power to “zero out” careers with no accountability.
That is truly unbridled authority which the First Amendment forbids.
The issue is simple, the evidence undisputed and the precedent clear. But for
21+ years, the courts below have seemed to go out of their way to avoid applying
Grumet and Larkin lest these chaplains win. Fifth Amendment due process-equal
protection rules have been substituted for Establishment precedent despite the
obvious prejudice and disregard for precedent. This case sends a clear message to
these military chaplains that they are not welcome in the District of Columbia.
Petitioners respectfully ask this Court to grant certiorari and tell the courts
below (1) the precedents which control this case have not died of old age and (2) it is
the courts’ duty to conduct thorough and careful review of Establishment claims to
protect that Clause’s guarantees and values.
Respectfully submitted,
/s/ Arthur A. Schulcz
Arthur A. Schulcz, Sr.
Chaplains’ Counsel, PLLC
21043 Honeycreeper Pl.
Leesburg, VA 20175
(703) 645-4010
Art @chaplainscounsel.com
Petitioners’ Counsel of Record

